OIG Investigative Reports, San Juan, PR., April 19,  2013 - Brenda Vel�zquez-Corchado, Found Guilty of Conspiracy to Commit Bribery Concerning Programs Receiving Federal Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
Rosa Emilia Rodríguez-Vélez
United States Attorney
District of Puerto Rico
Torre Chardón, Suite 1201     (787) 766-5656
350 Carlos Chardón Street
San Juan, Puerto Rico 00918
FOR IMMEDIATE RELEASE
April 19, 2013
Contact:     U.S. Attorney's Office
Lymarie V. Llovet-Ayala
Public Affairs Specialist
(787) 766-5656
Brenda Velázquez-Corchado, Found Guilty of Conspiracy to Commit Bribery Concerning Programs Receiving Federal Funds
SAN JUAN, PR – Today, Brenda Velázquez-Corchado, a former procurement official with the PR Department of Education was found of conspiracy to commit a violation of Title 18 USC Section 666(a)(1)(B), Bribery Concerning Programs Receiving Federal funds, announced United States Attorney Rosa Emilia Rodríguez-Vélez. United States District Court Senior Judge Juan Pérez-Giménez presided the trial. The sentencing hearing was scheduled for July 19, 2013 at 10:00 am.
Defendant Velázquez-Corchado was the sole defendant remaining of a 13 person indictment filed against various Puerto Rico Department of Education (PR DOE) officials, which included the Chief Procurement Officer of the PR DOE Luis Conde-Rosa, and various company officials doing business with the PR DOE. The jury found that between January 2008 through February 2010, the defendant conspired with others to corruptly solicit, demand, give and accept things of value, goods and cash, intending to be influenced and rewarded in connection with a transaction and a series of transactions. The evidence presented at trial show that approximately $2,900,000.00 dollars in contracts were awarded to companies where the defendant received over $25,000 in bribes, which included cash and goods.
The defendant is facing a possible maximum sentence of 10 years in prison.
"These individuals defrauded education programs, with the assistance of public employees who abused their positions for personal gain," said United States Attorney, Rosa Emilia Rodríguez-Vélez. "We will continue to investigate and prosecute those who engage in corrupt acts which directly affect federal programs and the availability of these funds for its intended recipients," stated Rodríguez-Vélez.
The case was prosecuted by Assistant United States Attorney's Julia Díaz-Rex and Héctor Ramírez. The investigation was led by the U.S. Department of Education, Office of the Inspector General (DOE-OIG), with the collaboration of the Federal Bureau of Investigation (FBI) and the Comptroller's Office in Puerto Rico.
###
Top
Printable view
Last Modified: 06/19/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov